                         Federal Register / Vol. 63, No. 243 / Friday, December 18, 1998 / Notices                                       70137

DEPARTMENT OF HEALTH AND                         DEPARTMENT OF HEALTH AND                     through Friday of each week from 8 a.m.
HUMAN SERVICES                                   HUMAN SERVICES                               to 4:30 p.m.
                                                                                              FOR FURTHER INFORMATION CONTACT:
Centers for Disease Control and                  Office of Inspector General                  Stephen Davis, Office of Counsel to the
Prevention                                                                                    Inspector General, (202) 619–2078.
                                                 Solicitation of Information and
                                                                                              SUPPLEMENTARY INFORMATION: The
CDC Advisory Committee on HIV and                Recommendations for Developing OIG
                                                                                              development of compliance program
STD Prevention: Meeting                          Compliance Program Guidance for the
                                                                                              guidances continues as a major OIG
                                                 Nursing Home Industry
                                                                                              initiative as a vehicle for engaging the
  In accordance with section l0(a)(2) of         AGENCY: Office of Inspector General          private health care community in an
the Federal Advisory Committee Act               (OIG), HHS.                                  effort to reduce fraud and abuse. This
(Pub. L. 92–463), the Centers for Disease        ACTION: Notice.                              nursing home guidance represents
Control and Prevention (CDC)                                                                  another step in the OIG’s plan to
announces the following committee                SUMMARY:    This Federal Register notice     encourage the implementation of
meeting.                                         seeks the input and recommendations of       compliance programs in specific
                                                 interested parties into the OIG’s            segments of the health care industry.1
   Name: CDC Advisory Committee on HIV
                                                 development of a compliance program          As in the past, this guidance is designed
and STD Prevention.
   Times and Dates: 8:30 a.m.–5 p.m., January
                                                 guidance for the nursing home industry       to provide clear direction and assistance
21, 1999. 8:30 a.m.–3 p.m., January 22, 1999.
                                                 and its providers and suppliers,             to Medicare and Medicaid nursing home
   Place: Corporate Square Office Park,          especially those serving Medicare and        providers, their owners and suppliers,
Corporate Square Boulevard, Building 11,         Medicaid beneficiaries. Many providers       who are interested in reducing and
Room 1413, Atlanta, Georgia 30329.               and provider organizations have              eliminating fraud and abuse within their
   Status: Open to the public, limited only by   expressed an interest in better              organizations.
the space available. The meeting room will       protecting their operations from fraud          The guidance represents the
accommodate approximately 100 people.            and abuse. The OIG has developed             culmination of the best suggestions and
   Purpose: This Committee is charged with       guidances for hospitals, clinical            recommendations from the OIG and
advising the Director, CDC, regarding            laboratories, home health agencies and       from representatives of the private
objectives, strategies, and priorities for HIV   third-party medical billing companies.       health care community on how
and STD prevention efforts including             Currently, the OIG has under                 providers can most effectively establish
maintaining surveillance of HIV infection,       development compliance program               internal controls and implement
AIDS, and STDs, the epidemiologic and            guidance for the durable medical             monitoring procedures to identify,
laboratory study of HIV/AIDS and STDs,           equipment, prosthetic and orthotic           correct and prevent fraudulent and
information/education and risk reduction         supply industry and Medicare+Choice          wasteful activities. As stated in previous
activities designed to prevent the spread of     organizations with coordinated care          guidances, these guidelines are not
HIV and STDs, and other preventive               plans. In order to provide a clear and       mandatory for providers, nor do they
measures that become available.                  meaningful guidance to those segments        represent an exclusive document of
   Matters to be Discussed: Agenda items         of the health care industry involved in      advisable elements of a compliance
include issues pertaining to syphilis            the ownership and operation of nursing       program.
elimination; perinatal HIV elimination;          care facilities, the OIG is soliciting          In an effort to formalize the process by
behavioral surveillance; and HIV prevention      comments, recommendations and                which the OIG receives public
research activities. Agenda items are subject    suggestions from concerned parties and       comments in connection with
to change as priorities dictate.                 organizations on how best to develop a       compliance program guidances, the OIG
   Contact Person for More Information: Beth     compliance program guidance and              is seeking, through this Federal Register
Wolfe, Committee Management Analyst,             reduce fraud and abuse within the            notice, formal input from interested
National Center for HIV, STD, and TB             nursing home industry.                       parties as the OIG begins developing the
Prevention, 1600 Clifton Road, NE, Mailstop      DATES: To assure consideration,              compliance program guidance for
E–07, Atlanta, Georgia 30333. Telephone          comments must be delivered to the            Medicare and Medicaid covered nursing
404/639–8008, fax 404/639–8600, e-mail           address provided below by no later than      home facilities, their providers and
eow1@cdc.gov.                                    5 p.m. on February 16, 1999.                 suppliers. The OIG considers all
   The Director, Management Analysis and                                                      comments, recommendations and
                                                 ADDRESSES: Please mail or deliver your
Services Office, has been delegated the                                                       suggestions submitted and received by
                                                 written comments, recommendations
authority to sign Federal Register Notices                                                    the time frame indicated above.
                                                 and suggestions to following address:
pertaining to announcements of meetings and                                                      The OIG anticipates that the nursing
                                                 Office of Inspector General, Department
other committee management activities, for                                                    home guidance will contain seven
                                                 of Health and Human Services,
both the Centers for Disease Control and                                                      elements that the OIG considers
                                                 Attention: OIG–5–CPG, Room 5246,
Prevention and the Agency for Toxic                                                           necessary for a comprehensive
                                                 Cohen Building, 330 Independence
Substances and Disease Registry.                                                              compliance program. These seven
                                                 Avenue, SW, Washington, DC 20201.
   Dated: December 11, 1998.                                                                  elements have been discussed in our
                                                   We do not accept comments by
Carolyn J. Russell,                                                                           previous guidances and include:
                                                 facsimile (FAX) transmission. In                • The development of written
Director, Management Analysis and Services       commenting, please refer to the file code    policies and procedures;
Office, Centers for Disease Control and          OIG–5–CPG. Comments received timely
Prevention (CDC).                                will be available for public inspection as     1 See 62 FR 9435 (March 3, 1997) for clinical
[FR Doc. 98–33543 Filed 12–17–98; 8:45 am]       they are received, generally beginning       laboratories, as amended in 63 FR 45076 (August
BILLING CODE 4163–18–P                           approximately 3 weeks after publication      24, 1998); 63 FR 8987 (February 23, 1998) for
                                                 of a document, in Room 5541 of the           hospitals; 63 FR 42410 (August 7, 1998) for home
                                                                                              health agencies, and for third party medical billing
                                                 Office of Inspector General at 330           companies appearing elsewhere in this Federal
                                                 Independence Avenue, SW,                     Register. The guidance can also be found on the
                                                 Washington, DC 20201 on Monday               OIG web site at http://www.dhhs.gov/progorg/oig.
70138                    Federal Register / Vol. 63, No. 243 / Friday, December 18, 1998 / Notices

  • The designation of a compliance          industries and on home health agencies.     solvency and stability of the Medicare
officer and other appropriate bodies;        We believe that the development and         Trust Fund. Health care providers are
  • The development and                      issuance of this compliance program         relying on these billing companies to a
implementation of effective training and     guidance for third-party medical billing    greater degree in assisting them in
education programs;                          companies will serve as a positive step     processing claims in accordance with
  • The development and maintenance          towards promoting a higher level of         applicable statutes and regulations.
of effective lines of communication;         ethical and lawful conduct throughout       Additionally, health care professionals
  • The enforcement of standards             the entire health care industry.            are consulting with billing companies to
through well-publicized disciplinary         FOR FURTHER INFORMATION CONTACT:            provide timely and accurate advice with
guidelines;                                  Susan Lemanski, Office of Counsel to        regard to reimbursement matters, as
  • The use of audits and other              the Inspector General, (202) 619–2078       well as overall business decision-
evaluation techniques to monitor                                                         making. As a result, the OIG considers
compliance; and                              SUPPLEMENTARY INFORMATION:                  compliance program guidance to third-
  • The development of procedures to         Background                                  party medical billing companies
respond to detected offenses and to                                                      particularly important in efforts to
initiate corrective action.                     The creation of compliance program
                                                                                         combat health care fraud and abuse.
  The OIG would appreciate specific          guidance remains a major effort by the
                                                                                         Further, because individual billing
comments, recommendation and                 OIG in its effort to engage the health
                                                                                         companies may support a variety of
suggestions on (1) risk areas for the        care community in combating fraud and
                                                                                         providers with different specialties, we
nursing home industry, and (2) aspects       abuse. In formulating compliance
                                                                                         recommend that billing companies
of the seven elements contained in           guidance, the OIG has worked closely
                                                                                         coordinate with their provider-clients in
previous guidances that may need to be       with the Health Care Financing
                                                                                         establishing compliance
modified to reflect the unique               Administration (HCFA), the Department
                                                                                         responsibilities. Using these 7 basic
characteristics of the nursing home          of Justice (DOJ) and various sectors of
                                                                                         elements outlined above, the OIG has
industry. Detailed justifications and        the health care industry to provide clear
                                                                                         identified specific areas of third-party
empirical data supporting suggestions        guidance to those segments of the
                                                                                         medical billing company operations that
would be appreciated. The OIG is also        industry that are interested in reducing
                                                                                         may prove to be vulnerable to fraud and
hopeful that any comments,                   fraud and abuse within their
                                                                                         abuse.
recommendations and input be                 organizations. The 3 previously-issued
submitted in a format that addresses the     compliance program guidances were             Like previously-issued OIG
above topics in a concise manner, rather     focused on the hospital industry, home      compliance guidances, adoption of the
than in the form of comprehensive draft      health agencies clinical laboratories,      Compliance Program Guidance for
guidance that mirrors previous               and were published in the Federal           Third-Party Medical Billing Companies
guidances.                                   Register on February 23, 1998 (63 FR        set forth below will be strictly
                                             8987), August 7, 1998 (63 FR 42410) and     voluntary. A reprint of this compliance
  Dated: December 14, 1998.                                                              program guidance follows:
                                             August 24, 1998 (63 FR 45076) ,
June Gibbs Brown,                            respectively. The development of these
Inspector General.                                                                       Office of Inspector General’s
                                             types of compliance program guidance        Compliance Program Guidance for
[FR Doc. 98–33566 Filed 12–17–98; 8:45 am]   is based on our belief that a health care   Third-Party Medical Billing Companies
BILLING CODE 4150–04–P                       provider can use internal controls to
                                             more efficiently monitor adherence to       I. Introduction
                                             applicable statutes, regulations and
DEPARTMENT OF HEALTH AND                     program requirements.                          The Office of Inspector General (OIG)
HUMAN SERVICES                                                                           of the Department of Health and Human
                                             Elements for an Effective Compliance        Services (HHS) continues in its efforts to
Office of Inspector General                  Program                                     promote voluntarily developed and
                                                Through experience, the OIG has          implemented compliance programs for
Publication of the OIG Compliance                                                        the health care industry. The following
                                             identified 7 fundamental elements to an
Program Guidance for Third-Party                                                         compliance program guidance is
                                             effective compliance program. They are:
Medical Billing Companies                                                                intended to assist third-party medical
                                                • Implementing written policies,
AGENCY: Office of Inspector General          procedures and standards of conduct;        billing companies (hereinafter referred
(OIG), HHS.                                     • Designating a compliance officer       to as ‘‘billing companies’’) 1 and their
ACTION: Notice.                              and compliance committee;                   agents and subcontractors in developing
                                                • Conducting effective training and      effective internal controls that promote
SUMMARY:    This Federal Register notice     education;                                  adherence to applicable Federal and
sets forth the recently issued                  • Developing effective lines of          State law, and the program requirements
Compliance Program Guidance for              communication;                              of Federal, State and private health
Third-Party Medical Billing Companies           • Enforcing standards through well-      plans.
developed by the Office of Inspector         publicized disciplinary guidelines;            Billing companies are becoming a
General (OIG) in cooperation with, and          • Conducting internal monitoring and     vital segment of the national health care
with input from, the Health Care             auditing; and                               industry.2 Increasingly, health care
Financing Administration, the                   • Responding promptly to detected
Department of Justice and                    offenses and developing corrective            1 For the purposes of this compliance program

representatives of various trade             action.                                     guidance, ‘‘third-party medical billing companies’’
associations and health care practice                                                    include clearinghouses and value-added networks.
groups. The OIG has previously               Third-Party Medical Billing Companies         2 Recent survey results from the Healthcare

                                                                                         Billing and Management Association (HBMA) show
developed and published compliance             Increasingly, third-party medical         that its membership processes more than 17.6
program guidance focused on the              billing companies are providing crucial     million claims per month totaling $18 billion a
clinical laboratory and hospital             services that could greatly impact the      year.
